U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 6, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Unity Healthcare v. Alex M. Azar, II, Secretary of Health &
Human Services, S.CtNo. 19-68

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 10,
2019, and placed on the docket on July 12, 2019. The government's response is due on August
12, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 11, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0068
UNITY HEALTHCARE
ALEX M. AZAR, II, SEC. OF HEALTH & HUMAN
SERVICES

JONATHAN B IRAN
BAKER, DONELSON, BEARMAN, CALDWELL
& BERKOWITZ, PC
100 LIGHT STREET
BALTIMORE, MD 21202
410-685-1120
JBIRAN@BAKERDONELSON.COM

